APPENDIX

ia
APPENDIX TABLE OF CONTENTS
Page
Judgment of
The United States Court of Appeals
For the Federal Circuit
entered April 8, 2019 ..................................... 1a
Opinion of
The United States Patent and
Trademark Office
entered February 13, 2019 ............................ 3a
Trademark Status & Document Retrieval
entered June 18, 2019 .................................. 29a

1a
ENTERED: April 8, 2019
NOTE: This disposition is nonprecedential.
United States Court of Appeals
for the Federal Circuit
IN RE: BRANDED LLC,
Appellant
2018-1828
Appeal from the United States Patent and Trademark
Office, Trademark Trial and Appeal Board in
No.86529647.

JUDGMENT
JEFFREY FURR, Furr Law Firm, Utica, OH, argued
for appellant.
THOMAS L. CASAGRANDE, Office of the Solicitor,
United States Patent and Trademark Office,
Alexandria, VA, argued for appellee Andrei Iancu.
Also represented by THOMAS W. KRAUSE, CHRISTINA J.
HIEBER, JOSEPH MATAL, FARHEENA YASMEEN
RASHEED.

THIS CAUSE having been heard and considered, it is
ORDERED and ADJUDGED:

2a
PER CURIAM (LOURIE, DYK, AND O’MALLEY, Circuit
Judges).
AFFIRMED. See Fed. Cir. R. 36.
ENTERED BY ORDER OF THE COURT
April 8, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

3a
ENTERED: February 13, 2018
This Opinion is Not a
Precedent of the TTAB
Hearing: January 18, 2018
Mailed: February 13, 2018
UNITED STATES PATENT AND
TRADEMARK OFFICE
Trademark Trial and Appeal Board
In re Branded LLC
Serial No. 86529647
Jeffrey M. Furr, of Furr Law Firm, for Branded LLC.
John C. Boone, Trademark Examining Attorney, Law
Office 104,1
Dayna Browne, Managing Attorney.
Before Shaw, Adlin, and Larkin, Administrative
Trademark Judges.
Opinion
Judge:

by

Larkin,

Administrative

Trademark

Trademark Examining Attorney Timothy J. Finnegan
examined the subject application and filed the Patent and
Trademark Office’s brief, but left federal service prior to the oral
hearing. Trademark Examining Attorney Cory Boone appeared
at the oral hearing on behalf of the Patent and Trademark Office.

1

4a
Branded LLC (“Applicant”) seeks registration on
the Supplemental Register of the claimed mark
TWEEDS in standard characters for “shirts;
sweaters,” in International Class 25.2 The Trademark
Examining Attorney has refused registration of
Applicant’s proposed mark under Section 23(c) of the
Trademark Act, 15 U.S.C. § 1091(c), on the ground
that it is a generic name for the identified goods, is
incapable of distinguishing them, and is therefore
ineligible for registration on the Supplemental
Register. When the refusal was made final, Applicant
appealed and requested reconsideration, which was
denied. Applicant and the Examining Attorney have
filed briefs, and counsel for Applicant and the
Examining Attorney appeared at an oral hearing
before the panel on January 18, 2018. We affirm the
refusal to register.
I.

Record on Appeal
The record on appeal consists of:

1. Dictionary definitions of the words “tweed” and
“tweeds;”3
Application Serial No. 86529647 was filed on February 10, 2015
under Section 1(a) of the Trademark Act, 15 U.S.C. § 1051(a), on
the basis of Applicant’s claim of first use of the mark on June 25,
1987 and first use of the mark in commerce on July 1, 1987.
Applicant originally sought registration on the Principal
Register, but amended its application during prosecution to seek
registration on the Supplemental Register.

2

May 20, 2015 Office Action at 2-8; July 30, 2015 Office Action
at 2-4; April 26, 2016 Office Action at 93-102; November 21, 2016
Office Action at 6-17. The Examining Attorney made the same
definitions, as well as some other evidence, of record in more
than one office action. This is unnecessary and confusing, and
should be avoided.

3

5a
2. Internet webpages regarding various types of
tweed fabric;4
3. Webpages showing use of the words “tweed” and
“tweeds” in connection with woolen clothing,
including coats, jackets, pants, kilts, skirts, hats,
and ties;5
4. The results of a Google search for “tweed shirts;”6
5. Webpages displaying shirts referred to as “tweed”
shirts and “tweed” shirt jackets;7
6. The results of a Google search for “tweed
sweaters;”8 and
7. Webpages displaying sweaters referred to as
“tweed” sweaters and “tweed” sweater jackets, or
sweaters made of tweed fabric.9

4

November 21, 2016 Office Action at 2-5

5

July 30, 2015 Office Action at 6-47.

6

April 26, 2016 Office Action at 2-4.

April 26, 2016 Office Action at 13-45; November 21, 2016 Office
Action at 40-50; June 9, 2017 Denial of Request for
Reconsideration at 12-32, 37-42.

7

April 26, 2016 Office Action at 46-48; November 21, 2016 Office
Action at 24-25.

8

April 26, 2016 Office Action at 58-92; November 21, 2016 Office
Action at 18-23, 26-39; June 9, 2017 Denial of Request for
Reconsideration at 2-11, 33-36, 43-55.

9

6a
II.

Genericness Refusal

Before discussing whether the claimed mark is
generic, we must address Applicant’s suggestion that
its ownership of a prior registration of TWEEDS for
shirts and sweaters is relevant. Applicant argues:
This mark was previously registered, and
owned by applicant, in association with the
exact same goods in US Registration
Number 1697698. The mark was not
previously determined to be generic. The
law and rules in this area of what is a
generic trademark and what is not have not
changed since the mark previously
registered. The marketplace in this area
has not changed since the mark previously
registered. In refusing registration of this
application based on genericness, the
Examining Attorney is running counter to
the previous correct findings of the USPTO.
The Examining Attorney has not shown or
proved any changes to the marketplace or
commerce
which
would
co[n]vert
“TWEEDS” from a mark that was placed
and registered on the principal register to a
mark that is generic.
8 TTABVUE 5.10
Applicant’s position is meritless. “The PTO is
required to examine all trademark applications for
compliance with each and every eligibility
The referenced registration is not in the record, and we do not
know why it is no longer subsisting, or when it was cancelled or
expired.

10

7a
requirement, including non-genericness, even if the
PTO earlier mistakenly registered a similar or
identical mark suffering the same defect.” In re
Cordua Rests., Inc., 823 F.3d 594, 118 USPQ2d 1632,
1635 (Fed. Cir. 2016) (existence of subsisting
incontestable standard character registration of
CHURRASCOS for restaurant services on the
Principal Register did not preclude finding that
stylized CHURRASCOS mark was generic for the
same restaurant services). “Thus, whether or not the
term [‘tweeds’] was generic when it was registered,
[the Board] must evaluate the evidence in the present
record to determine whether there is sufficient
evidence to establish that it is ineligible.” Id.
Turning to the substantive question on this
appeal, “[i]n order to qualify for registration on the
Supplemental Register, a proposed mark ‘must be
capable of distinguishing the applicant’s goods or
services.’” In re Empire Tech. Dev. LLC, 123 USPQ2d
1544, 1547 (TTAB 2017) (quoting In re Emergency
Alert Sols. Grp., LLC, 122 USPQ2d 1088, 1089 (TTAB
2017) (quoting 15 U.S.C. § 1091(c))). “‘Generic terms
do no so qualify.’” Id. (quoting Emergency Alert Sols.,
122 USPQ2d at 1089).
“‘A generic term ‘is the common descriptive name
of a class of goods or services.’” Id. (quoting Princeton
Vanguard, LLC v. Frito-Lay N. Am., Inc., 786 F.3d
960, 114 USPQ2d 1827, 1830 (Fed. Cir. 2015)
(internal quotation omitted)). “The test for
determining whether a proposed mark is generic is its
primary significance to the relevant public.” Id.
“Determining whether a mark is generic therefore
involves a two-step inquiry: First, what is the genus
of goods or services at issue? Second, is the term

8a
sought to be registered understood by the relevant
public primarily to refer to that genus of goods or
services?” H. Marvin Ginn Corp. v. Int’l Ass’n of Fire
Chiefs, Inc., 782 F.2d 987, 228 USPQ 528, 530 (Fed.
Cir. 1986). The Examining Attorney must establish
that TWEEDS is generic by clear evidence of generic
use. Empire Tech., 123 USPQ2d at 1547 (citing In re
Hotels.com, L.P., 573 F.3d 1300, 91 USPQ2d 1532,
1533 (Fed. Cir. 2009)).
A. The Genus of Goods
“The genus of goods is often defined by the
identification in the subject application. . . .” Id.
(citing In re Meridian Rack & Pinion, 114 USPQ2d
1462, 1463 (TTAB 2015)). Applicant argues that the
“genus here is shirts and sweaters,” 8 TTABVUE 4,
while the Examining Attorney argues that “the
application identifies the goods as ‘shirts, sweaters’,
namely, clothing, which adequately defines the genus
at issue.” 11 TTABVUE 4-511. We find that the
identification adequately identifies two genuses of
goods: “shirts” and “sweaters.” Applicant’s claimed
mark may be refused registration for both goods in
Class 25 if it is the generic name for either one. In re
It is unclear whether the Examining Attorney contends that
“clothing,” which subsumes “shirts” and “sweaters,” is the genus,
rather than the individual items of clothing identified in the
application. As discussed below, the Examining Attorney
discusses Internet evidence that he claims shows “the
widespread generic quality of the words ‘tweed’ and ‘tweeds’
when used by retail clothing stores to describe clothing,
namely, shirts and sweaters, of tweed cloth,” 11 TTABVUE 5
(emphasis added), but the identification does not read “clothing,
namely, shirts and sweaters,” and he must show that Applicant’s
claimed mark is generic for the identified goods.

11

9a
Chamber of Commerce of the U.S., 675 F.3d 1297, 102
USPQ2d 1217, 1219 (Fed. Cir. 2012).
B. The
Relevant
Purchasing
Public’s
Understanding of TWEEDS for Shirts and
Sweaters
We turn now to the second Marvin Ginn inquiry,
whether TWEEDS is understood by the relevant
purchasing public to refer to shirts or sweaters.
1. Defining
Public

the

Relevant

Purchasing

We agree with the Examining Attorney that “the
relevant public is the purchasing or consuming public
for the identified goods,” which here is “ordinary
consumers who purchase Applicant’s goods, because
there are no restrictions or limitations to the channels
of trade or classes of customers in Applicant’s
identification.” 11 TTABVUE 5.
2. The Evidence Regarding the Public’s
Understanding of TWEEDS
“‘Evidence of the public’s understanding of a
proposed mark may be obtained ‘from any competent
source, such as consumer surveys, dictionaries,
newspapers and other publications.’” Empire Tech.,
123 USPQ2d at 1548-49 (quoting Princeton
Vanguard, 114 USPQ2d at 1830 (internal quotation
omitted)). Testimony regarding the public’s
understanding may also be considered. In re
Northland Aluminum Prods., Inc., 777 F.2d 1556, 227
USPQ 961, 963 (Fed. Cir. 1985).

10a
a. Dictionary Definitions of “Tweed”
and “Tweeds”
The Examining Attorney made of record
dictionary definitions of “tweed” as “a rough-surfaced
woolen cloth, typically of mixed flecked colors,
originally
produced
in
Scotland,”
OXFORD
12
DICTIONARIES
(oxforddictionaries.com/us),
and
“a rough woolen cloth that is woven with
different colored threads.” MERRIAM-WEBSTER
ONLINE DICTIONARY (merriam-webster.com).13 The
Examining Attorney also made of record dictionary
definitions of “tweeds” as “clothes made of tweed,”
OXFORD DICTIONARIES,14 and “tweed clothing (such as
a suit).” MERRIAM-WEBSTER ONLINE DICTIONARY.15
Taken together, these definitions indicate that
“tweeds” refers to a category of clothing made of
rough, multicolored woolen cloth.
It is not sufficient, however, for the Examining
Attorney to show that “tweeds” refers to tweed
clothing other than shirts and sweaters, such as
jackets, pants, or skirts. That is to say, the
Examining Attorney’s evidence establishing the
existence of a broad category of men’s and women’s
tweed clothing,16 tweed field coats, jackets, and

12

May 20, 2015 Office Action at 2.

13

Id. at 5.

14

Id. at 2.

15

Id. at 5.

16

July 30, 2015 Office Action at 5-7, 44-47.

11a
headwear,17 tweed ties,18 and tweed trousers,19 does
not carry his burden of showing that “tweeds” refers
to a category of shirts or sweaters. See Sheetz of Del.,
Inc. v. Doctor’s Assocs. Inc., 108 USPQ2d 1341, 1366
(TTAB 2013). We turn to the record to determine
whether the category of clothing referred to as
“tweeds” includes shirts and sweaters, or whether
there are other categories of shirts and sweaters
referred to as “tweeds.”
b. Internet Evidence of Use of “Tweed”
and “Tweeds” in Connection with
Shirts and Sweaters
The Examining Attorney made of record multiple
webpages displaying and offering for sale shirts
referred to as “tweed” shirts,20 and sweaters referred
to as “tweed” sweaters. We reproduce examples of
those webpages below.

17

Id. at 28-31.

18

Id. at 32.

19

Id. at 41-42.

Two websites displaying tweed shirts appear to be the
Australian versions of the sites (countryroad.com.au/shop, April
26, 2016 Office Action at 30-33 and trenery.com.au/shop, April
26, 2016 Office Action at 34-38), while pages from two websites
displaying tweed shirts appear to be United Kingdom pages
(ebay.co.uk, April 26, 2016 Office Action at 41-45, and
theprojektstore.co.uk, April 26, 2016 Office Action at 50). We
have given no weight to these webpages in the absence of
evidence regarding their exposure to Americans.

20

12a
Tweed Shirts21

As discussed below, most of the shirts referred to as “tweed”
shirts, and a few of the sweaters referred to as “tweed” sweaters,
are described as being made of materials other than wool. Uses
of “tweed” to refer to categories of non-woolen shirts and
sweaters that have the look, appearance, or style of tweed fabric
(i.e., that appear to be rough fabric with different colored
threads) are no less significant in determining whether
TWEEDS is generic than are uses of “tweed” to refer to
categories of shirts and sweaters actually made of tweed fabric,
because both uses of TWEEDS define a genus of the goods.
Indeed, Applicant does not distinguish between the evidence
regarding shirts and sweaters made of tweed fabric, and the
evidence regarding shirts and sweaters that have the look,
appearance, or style of tweed fabric, in acknowledging that the
“examples given by the examining attorney use the word ‘tweed’
to indicate the type of sweater or shirt being offered.” 8
TTABVUE 4

21

13a

November 21, 2016
(highlighting added).

Office

Action

at

40-41

14a

June 9, 2017 Denial of Request for Reconsideration at
29-32.

15a

November 21, 2016 Office Action at 46.

April 26, 2016 Office Action at 13-14.22

The webpages displaying this shirt state that it is made of
cotton. April 26, 2016 Office Action at 14.

22

16a

April 26, 2016 Office Action at 17-18 (highlighting
added).23

The webpages displaying this shirt state that it is made of
cotton and polyester. April 26, 2016 Office Action at 17.

23

17a

April 26, 2016 Office Action at 26-27.24.24

The webpages displaying this shirt state that it is made of
cotton and polyester, which are described as “[g]rey tweed-like
material.” April 26, 2016 Office Action at 27.

24

18a

June 9, 2017 Denial of Request for Reconsideration at
12-1425

June 9, 2017 Denial of Request for Reconsideration at
24-25.26
The webpages displaying this shirt state that the “[t]weed
shirt boasts a supersoft suede-inspired finish,” but that it is
made of polyester. June 9, 2017 Denial of Request for
Reconsideration at 13-14.

25

The webpages displaying this shirt state that the “Bristol
Tweed Long Sleeve is a soft, trusty cotton flannel in a subtle and
classic TWEEDY weave.” June 9, 2017 Denial of Request for
Reconsideration at 25.

26

19a
Tweed Sweaters

April 26, 2016 Office Action at 58-60.

20a

April 26, 2016 Office Action at 61-66.

April 26, 2016 Office Action at 73-74.

21a

April 26, 2016 Office Action at 75-78.

April 26, 2016 Office Action at 82-83.

22a

November 21, 2016 Office Action at 33-34.

23a

24a
June 9, 2017 Denial of Request for Reconsideration at
2-3.2727

27 The webpages displaying this sweater state that it is made
of 55% cotton, 25% wool, and 20% polyester yarn and “is knit
with color-flecked yarns for the look of tweed.” June 9, 2017
Denial of Request for Reconsideration at 3.

27

25a
June 9, 2017 Denial of Request for Reconsideration at
34.28

June 9, 2017 Denial of Request for Reconsideration at
50-51 (highlighting added).29
Applicant does not challenge the quantity or
quality of the Examining Attorney’s evidence, or offer
any countervailing evidence. To the contrary,
Applicant readily agrees that “it is possible to find
shirts and sweaters that are made of tweed,”30 and
that the “examples given by the examining
The webpages displaying this sweater state that it is made of
cotton, rayon, and polyester, but is “in tweed with fringe hem.”
June 9, 2017 Denial of Request for Reconsideration at 34.

28

The webpages displaying this sweater describe it as a “Tweed
sweater in tinted wool and cashmere.” June 9, 2017 Denial of
Request for Reconsideration at 51.

29

30 Applicant’s counsel acknowledged at the oral hearing that
a number of Applicant’s shirts and sweaters were made of tweed
fabric.

30

26a
attorney use the word ‘tweed’ to indicate the
type of sweater or shirt being offered.” 8
TTABVUE
4
(emphasis
added).
Applicant
nevertheless claims that “tweeds” is not the generic
name even for “shirts and sweaters that are made of
tweed” because “[t]weed is a fabric, not a shirt or
sweater,” and “tweeds” is thus “merely descriptive of
a type of sweater or shirt.” 8 TTABVUE 4.31 These
arguments misapprehend the law of genericness.
The use of “tweed” to “indicate the type of sweater
or shirt being offered,” 8 TTABVUE 4, is use of the
word in its adjectival form, rather than in its noun
form to identify a fabric, but generic adjectives are
just as unprotectable as generic nouns. In Sheetz of
Del., supra, the Board found that the adjective
“footlong” was generic for “sandwiches, excluding hot
dogs” because the record showed that “‘Footlong, as
used by applicant, identifies a type or category of
sandwich and that the relevant public understands
the term ‘Footlong’ to refer to that class of products
that includes 12-inch sandwiches.” 108 USPQ2d at
1366. The Board “readily acknowledge[d] that
Applicant also argues, without any evidentiary support, that
the “goods have been offered in commerce with this mark since
1987” and that the “mark has become distinctive with these
goods and is recognized by consumers as an indicator of source
for the goods,” 8 TTABVUE 5, but a “generic mark, being the
‘ultimate in descriptiveness,’ cannot acquire distinctiveness.” In
re La. Fish Fry Prods., Ltd. 797 F.3d 1332, 116 USPQ2d 1262,
1264 (Fed. Cir. 2015) (quoting Marvin Ginn, 228 USPQ at 530).
Because we find that TWEEDS is a generic name for Applicant’s
goods, no amount of evidence of acquired distinctiveness could
establish that it is registrable. See, e.g., Northland Aluminum,
227 USPQ at 964.

31

27a
‘Footlong’ is not the name of a food product; rather it
is an adjective referring to the length of the sandwich.
This adjectival use, however, does not remove
‘Footlong’ from being generic when used in connection
with sandwiches” because “the term does not merely
describe a sandwich, but in fact identifies a category
of sandwiches included within the relevant genus.”
Id. The Board noted that “[a]lthough it has sometimes
been said that ‘generic names are nouns and
descriptive uses are adjectives,’ such a rule is not
consistent with the Board’s precedent or that of many
courts; genericness cannot be determined simply by
applying prescriptivist rules based on parts of
speech.” Id. (citing MCCARTHY ON TRADEMARKS AND
UNFAIR COMPETITION § 12:10 (4th ed. rev. March
2013)); see also In re Cent. Sprinkler Co., 49 USPQ2d
1194, 1199 (TTAB 1998).
Applicant’s acknowledgment that the “examples
given by the examining attorney use the word ‘tweed’
to indicate the type of sweater or shirt being
offered,” 8 TTABVUE 4, is a concession that the
proposed mark TWEEDS “does not merely describe a
[sweater or shirt], but in fact identifies a category of
[sweater or shirt] included within the relevant
genus.” Sheetz of Del., 108 USPQ2d at 1366; see also
Cordua Rests., 118 USPQ2d at 1637 (“a term can be
generic for a genus of goods or services if the relevant
public . . . understands the term to refer to a key
aspect of that genus . . . .”). The pluralization of the
word “tweed” as TWEEDS in the claimed mark does
not alter its meaning as referring to categories of
shirts and sweaters. Id.
On the basis of the record as a whole, we find that
the Examining Attorney has established, by clear

28a
evidence of generic use, that Applicant’s claimed
mark TWEEDS is understood by the relevant
purchasing public to refer to categories of shirts and
sweaters that are made of tweed fabric, or that have
the appearance, look, or style of tweed fabric. The
proposed mark is thus incapable of distinguishing
Applicant’s goods, making it ineligible for registration
on the Supplemental Register.
Decision: The refusal to register Applicant’s
mark on the Supplemental Register is affirmed.

29a
ENTERED: June 18, 2019
Trademark Status & Document Retrieval
BULK DATA: The TSDR Application Programming
Interface (API) will be unavailable starting May 7 at
12 a.m. ET for at least two weeks. Bulk data
customers who rely on the TSDR API can use
alternative methods to receive bulk data from
TSDR. If you are a bulk data customer who has
questions or needs additional information, please
email us.
INTERMITTENT SYSTEM ISSUES: Due to highvolume usage, you may experience intermittent
issues on the Trademark Status and Document
Retrieval (TSDR) system between 6 – 8 a.m. ET.
Refreshing your web browser should resolve the
issue. If you still need assistance accessing a
document, email teas@uspto.gov and include your
serial number, the document you are looking for, and
a screenshot of any error messages you have
received.
ENHANCEMENT
TO
PROTECT
YOUR
PRIVACY: When applicants and registrants are not
represented by an attorney, the USPTO now masks
the correspondence email address in the status tab
and the Application Programming Interface (API).
We made this change to reduce the likelihood that
customers will be subjected to scams and unwanted
solicitations.
STATUS
DOCUMENTS
Back to Search

MAINTENANCE
Print

30a
Generated on: This page was generated by TSDR
on 2019-06-18 19:44:34 EDT
Mark: TWEEDS

No Image exists for this case.

US Serial Number: 73685672
Application Filing Date: Sep. 22, 1987
US Registration Number: 1697698
Registration Date: Jun. 30, 1992
Register: Principal
Mark Type: Trademark, Service Mark
TM5 Common Status
Descriptor:

DEAD/REGISTRATION/Cancelled/Invalidated
The trademark application was registered, but
subsequently invalidated and removed from the
registry.
Status: Registration cancelled because registrant did
not file an acceptable declaration under Section 8. To
view all on the Trademark Document Retrieval link at
the top of this page.
Status Date: Dec. 16, 2014
Publication Date: Apr. 07, 1992
Date Cancelled: Dec. 16, 2014
Mark Information

31a
Mark Literal Elements: TWEEDS
Standard Character Claim: No
Mark Drawing Type:
1 - TYPESET WORD(S) /LETTER(S) /NUMBER(S)
Acquired Distinctiveness In whole
Claim:
Goods and Services
Note:
x

x

The following symbols indicate that the
registrant/owner
has
amended
the
goods/services:

Brackets [..] indicate deleted goods/services;
x

Double parenthesis ((..)) identify any
goods/services not claimed in a Section 15
affidavit of incontestability; and

x

Asterisks *..* identify additional (new) wording
in the goods/services.

For: MAIL ORDER SALES OF [ MEN'S AND ]
WOMEN'S SPORTSWEAR
International Class(es): 042 - Primary Class
U.S. Class(es): 100, 101
Class Status: SECTION 8 - CANCELLED
Basis: 1(a)
First Use: Jun. 25, 1987

32a
Use in Commerce: Jul. 01, 1987
For: SHIRTS AND SWEATERS
International Class(es): 025 - Primary Class
U.S. Class(es): 039
Class Status: SECTION 8 - CANCELLED
Basis: 1(a)
First Use: Jun. 25, 1987
Use in Commerce: Jul. 01, 1987
Basis Information (Case Level)
Current Owner(s) Information
Attorney/Correspondence Information
Prosecution History
Date
Jan. 24,
2018
Dec. 16,
2014
Oct. 15,
2007
May 10,
2006
Sep. 27,
2002

Description
ASSIGNMENT OF OWNERSHIP
NOT UPDATED
AUTOMATICALLY
CANCELLED SEC. 8
(10-YR)
CASE FILE IN TICRS
ASSIGNMENT OF
OWNERSHIP NOT
UPDATED AUTOMATICALLY
REGISTERED AND RENEWED
(FIRST RENEWAL - 10 YRS)

Proceeding
Number

67657

33a
Sep. 27,
2002
Jul. 05,
2002
Jul. 05,
2002
Jun. 07,
2002
Apr. 02,
1998
Sep. 22,
1997
Sep. 08,
1997
Jun. 30,
1992
Apr. 07,
1992
Mar. 06,
1992
Apr. 22,
1991
Sept. 10,
1990
Jul. 30,
1990
Jan. 22,
1990
Aug. 07,
1990
May 15,
1990

REGISTERED - SEC. 8 (10-YR)
ACCEPTED/SEC. 9 GRANTED
REGISTERED - COMBINED
SECTION 8 (10-YR) & SEC. 9
FILED
PAPER RECEIVED
TEAS CHANGE OF
CORRESPONDENCE RECEIVED
POST REGISTRATION ACTION
CORRECTION
REGISTERED - SEC. 8 (6-YR)
ACCEPTED & SEC. 15 ACK.
REGISTERED - SEC. 8 (6-YR) &
SEC. 15 FILED
REGISTERED-PRINCIPAL
REGISTER
PUBLISHED FOR OPPOSITION
NOTICE OF PUBLICATION
APPROVED FOR REGISTRATION
SUPPLEMENTAL REGISTER
CONTINUATION OF FINAL
REFUSAL MAILED
CORRESPONDENCE RECEIVED
IN LAW OFFICE
CORRESPONDENCE RECEIVED
IN LAW OFFICE
EXAMINER’S AMENDED
MAILED
CORRESPONDENCE RECEIVED
IN LAW OFFICE

34a
Apr. 20,
1990
Mar. 07,
1990
Jan. 16,
1990
Dec. 20,
1989
Oct. 03,
1989
Jul. 12,
1989
Apr. 10,
1989
Mar. 10,
1988
Oct. 24,
1989
Aug. 11,
1988
Feb. 12,
1988
Dec. 28,
1987
Dec. 16,
1987

ASSIGNED TO EXAMINER

59810

ASSIGNED TO EXAMINER

59500

CONTINUATION OF FINAL
REFUSAL MAILED
JURISDICTION RESTORED TO
EXAMINING ATTORNEY
CONTINUATION OF FINAL
REFUSAL MAILED
JURISDICTION RESTORED TO
EXAMINING ATTORNEY
CORRESPONDENCE RECEIVED
IN LAW OFFICE
ASSIGNED TO EXAMINER
67123
FINAL REFUSAL MAILED
CORRESPONDENCE RECEIVED
IN LAW OFFICE
NON-FINAL ACTION MAILED
NON-FINAL ACTION MAILED
ASSIGNED TO EXAMINER

TM Staff and Location Information
Assignment Abstract Of Title Information
Proceedings
Summary

64632

35a
Party Type
Proceedings
Number of Proceedings: 2
Type of Proceeding: Exparte Appeal
Proceeding Number: 73685672
Filing Date:
Status: Terminated
Status Date: Aug 03, 1993
Interlocutory Attorney:
Plaintiff(s)
Name: TWEEDS, INC.
Correspondent Address:
RANDY LIPSITZ
BROWN RAYSMAN MILLSTEIN
FELDER & STEINER
120 W 45TH ST
NEW YORK NY UNITED STATES, 10036
Associated marks
Mark
TWEEDS
Application Status
Cancelled - Section
Serial Number

36a
73685672

Registration Number
1697698
Prosecution History
Entry History Text
Number
1
APPEAL TO BOARD
2

AMENDMENT

3

REMANDED
TO EXAMINER

4

APPEAL
BRIEF DUE 12-11-89
APPEAL
SUSP;
REMAND TO EXMR.
APPEAL
RESUMED;
BRIEF DUE 03-26-90
STIPULATED
CONSENT
FOR REMANDING
APPEAL
SUSP; REMANDED
TO EXMR.
APPEAL
RESUMED;
BRIEF DUE 11-19-90

5

6

7

8

9

Date
Apr
10, 1989
Apr
10, 1989
Jul
12, 1989
Oct
11, 1989
Dec
15, 1989
Jan
26, 1990
Dec
08, 1989
Mar
02, 1990
Sep
20, 1990

Due
Date

37a
10
11
12

REQ. TO
Oct
EXT. OF TIME
18, 1990
REQ. TO
Feb
DISMISS APPEAL
13, 1991
APPEAL
Mar
DISMISSED
03, 1991
Type of Proceeding:
Opposition

